CERTIFICATE OF COMPLIANCE
I, Norine Cave, Petitioner, pro se, hereby certify that according to the
word count tool in Microsoft Word, the Petitioners Petition For a Writ of
Certiorari in support of Petitioner consists of 5,527 words including footnotes
and excluding the sections enumerated by Rule 33.1(d). The Petition therefore
complies with the Rule 33.1(g)
Respectfully submitted this 20th Day of August, 2020,

Norine Cave
Petitioner, pro se
P.O. Box 801041
Acworth., GA. 30101
404-963-0309
Norine.s.cave@gmail.com

18

